HHS/OIG, Audit -"Review of Acute Care Hospital Prison Inmate Expenditures Claimed by New Jersey to the Disproportionate Share Hospital Program for the Period July 1, 1997 Though June 30, 2001,"(A-02-02-01028)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Acute Care Hospital Prison Inmate Expenditures Claimed by New Jersey to the Disproportionate Share Hospital
Program for the Period July 1, 1997 Though June 30, 2001," (A-02-02-01028)
January 13, 2004
Complete
Text of Report is available in PDF format (487 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that New Jersey hired an outside contractor, under a contingency fee arrangement, to attempt
to generate additional Federal reimbursement by identifying and submitting State expenditures, not previously claimed,
for Federal reimbursement.  As a result, New Jersey inappropriately claimed health care costs (approximately $11.1
million Federal share) applicable to prison inmates under Medicaids disproportionate share hospital program.  The
New Jersey State plan explicitly excluded Federal sharing in the costs of health services provided to prison inmates.  Further,
the Centers for Medicare & Medicaid Servicess (CMS) guidance prohibited Federal sharing for prison inmate costs under
the disproportionate share hospital program. We recommended that New Jersey refund $11.1 million to the Federal Government,
adhere to its State plan requirements and CMSs policy clarification when submitting future disproportionate share hospital
claims for Federal reimbursement, and  review all work performed by consultants to ensure the veracity of future Medicaid
claims to the Federal Government.